TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Plans Exist to Engage the Tax Preparer
                      Community in Reducing the Tax Gap;
                      However, Enhancements Are Needed



                                           June 10, 2010

                              Reference Number: 2010-30-061




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


PLANS EXIST TO ENGAGE THE TAX                        The IRS’ Strategic Plan is supported by plans
PREPARER COMMUNITY IN REDUCING                       from 10 business divisions and functional
THE TAX GAP; HOWEVER,                                offices, with numerous goals and activities to
ENHANCEMENTS ARE NEEDED                              strengthen the partnership with tax
                                                     practitioners. Additionally, in June 2009, the
                                                     IRS Commissioner launched the Return
Highlights                                           Preparer Review, which supports the Strategic
                                                     Plan to enhance compliance standards for tax
                                                     preparers. The Review resulted in a report
Final Report issued on June 10, 2010                 issued on January 4, 2010, that contained eight
                                                     recommendations, including mandatory tax
Highlights of Reference Number: 2010-30-061          return preparer registration and competency
to the Internal Revenue Service Deputy               examination requirements for tax preparers.
Commissioner for Services and Enforcement
and the Chief Financial Officer.                     Our review found that the IRS’ Strategic Plan
                                                     does not contain sufficient measures that will be
IMPACT ON TAXPAYERS                                  useful for monitoring its performance in
Paid preparers prepare more than half of all         achieving its goals and objectives to engage the
individual tax returns filed and have a great deal   paid preparer community. Also, the plans of the
of influence on taxpayer compliance levels.          IRS business divisions and functional offices
Because most taxpayers use preparers to file         did not always include outcome measures,
their tax returns, adherence to standards and        baselines, or targets that could be used to
the preparation of accurate tax returns have a       measure whether actions taken would achieve
significant effect on taxpayer compliance and        desired objectives in the Strategic Plan.
the Internal Revenue Service’s (IRS) efforts to      WHAT TIGTA RECOMMENDED
reduce the tax gap.
                                                     TIGTA recommended that the Chief Financial
WHY TIGTA DID THE AUDIT                              Officer 1) take steps to update the existing IRS
The individual income tax is the largest single      Strategic Plan and ensure future strategic plans
source of Federal receipts and comprises over        have all key components and 2) define and
71 percent of the tax gap. TIGTA initiated this      include in the Strategic Plan sufficient measures
review to evaluate the IRS’ efforts to engage        that will provide data that can be used to monitor
the tax practitioner community in a productive       the IRS’ efforts to achieve objectives aimed at
partnership to reduce the tax gap.                   strengthening partnerships with tax practitioners
                                                     and paid preparers to ensure effective tax
WHAT TIGTA FOUND                                     administration.
The IRS has taken actions to engage the tax          IRS officials agreed with our recommendations;
preparer community that could affect tax             however, the planned corrective actions did not
administration and reduce the tax gap. The IRS       address updating the existing Strategic Plan with
developed a Fiscal Years 2009–2013 Strategic         omitted key components and sufficient
Plan to improve oversight of tax administration.     measures to monitor the IRS’ efforts regarding
It includes two key objectives and several           the paid preparer community.
strategies that pertain to reducing the tax gap
by engaging the tax preparer community.              TIGTA continues to believe the existing
However, actions were not taken to ensure            Strategic Plan should be updated to ensure the
previously omitted key components were               IRS is compliant with the Government
included in the existing IRS Strategic Plan.         Performance and Results Act of 1993. In
Without these components, it is unclear how the      addition, without an effective process to monitor
IRS will effectively monitor its performance and     its performance, the IRS cannot ensure its
adherence to the requirements for strategic          programs are achieving their objectives and
plans.                                               desired outcomes.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 10, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                CHIEF FINANCIAL OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Plans Exist to Engage the Tax Preparer
                                 Community in Reducing the Tax Gap; However, Enhancements Are
                                 Needed (Audit # 200930027)

 This report presents the results of our review to evaluate the Internal Revenue Service’s (IRS)
 efforts to engage the tax practitioner community in a productive partnership to reduce the tax
 gap. 1 The audit was conducted as part of our Fiscal Year 2010 Annual Audit Plan and addresses
 the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     See Appendix V for a glossary of terms.
                           Plans Exist to Engage the Tax Preparer Community in
                        Reducing the Tax Gap; However, Enhancements Are Needed




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Taken to Engage the Tax Preparer Community
          Could Affect Tax Administration and Reduce the Tax Gap ........................Page 3
                    Recommendation 1: .................................................................. Page 6

          A Return Preparer Review Was Initiated to Enhance Compliance
          Standards for Tax Preparers .........................................................................Page 7
          Performance Measures Are Needed to Monitor Efforts to
          Engage the Tax Preparer Community ..........................................................Page 9
                    Recommendation 2:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Examples of Goals, Programs, and Activities
          (From 10 Business Divisions and Functional Offices That
          Support the Strategic Plan) ...........................................................................Page 17
          Appendix V – Glossary of Terms .................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
           Plans Exist to Engage the Tax Preparer Community in
        Reducing the Tax Gap; However, Enhancements Are Needed




                     Abbreviations

FY             Fiscal Year
IRS            Internal Revenue Service
TIGTA          Treasury Inspector General for Tax Administration
                          Plans Exist to Engage the Tax Preparer Community in
                       Reducing the Tax Gap; However, Enhancements Are Needed




                                              Background

The United States has one of the highest tax compliance rates in the world at 83.7 percent.
However, each percentage point of noncompliance costs the Federal Government approximately
$21 billion, which equates to more than $342 billion in annual lost revenue. On an annual basis,
more than half of all taxpayers pay someone else to prepare their income tax returns. In
                                                    Calendar Year 2009, the Internal Revenue
                                                    Service (IRS) processed approximately
  Paid preparers can be self-employed or may
                                                    86 million individual Federal income tax
  work for accounting firms, large tax preparation
  services, or law firms and include the following: returns prepared by paid preparers. This
                                                    activity is down by less than 5 percent from
  • Licensed professionals, such as attorneys
      and Certified Public Accountants. These       the nearly 90.4 million tax returns prepared
      licensed professionals are regulated by the   by paid preparers in Calendar Year 2008, but
      State licensing authority.                    is still more than half of all individual
  • Enrolled agents. These professionals pass       taxpayers who filed a tax return. Taxpayers
      an IRS examination or present evidence of     are ultimately responsible for the information
      qualifying experience as a former IRS         reported on their tax returns. However, there
      employee and have been issued an              are no existing national standards that a
      enrollment card. Enrolled agents are the
                                                    preparer is required to satisfy before selling
      only taxpayer representatives who receive
      their right to practice from the Federal      tax preparation services to the public.
      Government.                                   Anyone, regardless of training, experience,
  • Unenrolled or unlicensed preparers.             skill, or knowledge, is allowed to prepare
      These individuals range from those who        Federal income tax returns for others for a
      might receive extensive training to those     fee.
         with little or no training. Currently, only
         three States—California, Maryland, and        The individual income tax is the largest
         Oregon—have requirements for unenrolled       single source of Federal receipts, and tax
         paid preparers. In these States, unenrolled   practitioners have a great deal of influence to
         paid preparers must register with State       ensure taxpayers comply with tax laws. The
         agencies and meet continuing education
         requirements.                                 individual income tax comprises over
                                                       71 percent of the $345 billion gross tax gap. 1
Since 2006, the Department of the Treasury and the IRS Oversight Board (hereafter referred to
as the Board) have developed strategies to address noncompliance. The Department of the
Treasury Office of Tax Policy issued A Comprehensive Strategy for Reducing the Tax Gap that
referenced coordination with partners and stakeholders.



1
    See Appendix V for a glossary of terms.
                                                                                               Page 1
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



It suggested that:
       Closer coordination is needed between the IRS and State and Foreign Governments to
       share information and compliance strategies. Closer coordination also is needed with
       practitioner organizations, including bar and accounting associations, to maintain and
       improve mechanisms to ensure that advisors provide appropriate tax advice. Through
       contacts with practitioner organizations, the Department of the Treasury and IRS learn
       about recent developments in tax practice and hear directly from practitioners about
       taxpayer concerns and potentially abusive practices.
In its Fiscal Year (FY) 2006 Annual Report, the Board recommended six interrelated strategies
that it believed would reduce the tax gap. The strategies included simplifying the tax code,
improving information reporting and enforcement tools to address underreporting of income,
improving customer service, and creating a more productive partnership between the IRS and the
tax preparer community.
In its FY 2008 Annual Report, the Board reported that the tax gap was a serious systemic
weakness that must be addressed and is a real cost to taxpayers. The Annual Report stated that
the tax gap, which is unacceptably high, deprives the nation and its people of $290 billion in tax
revenue each year that should be collected. The report further stated that if the tax gap was zero,
the Federal Government would have additional revenue each year that it could either spend on
programs or refund to taxpayers.
The review was performed at the IRS National Headquarters in Washington, D.C., in the
Office of Appeals, Criminal Investigation Division, Large and Mid-Size Business Division,
Tax Exempt and Government Entities Division, Office of Professional Responsibility, and
Taxpayer Advocate Service; the National Headquarters in New Carrollton, Maryland, for the
Small Business/Self-Employed Division; and the National Headquarters in Atlanta, Georgia, for
the Wage and Investment Division during the period May 2009 through January 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology are presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                            Page 2
                      Plans Exist to Engage the Tax Preparer Community in
                   Reducing the Tax Gap; However, Enhancements Are Needed




                                Results of Review

Actions Taken to Engage the Tax Preparer Community Could Affect
Tax Administration and Reduce the Tax Gap
Because more than half of all tax returns filed are prepared by paid preparers, tax return
preparers have a significant effect on taxpayer compliance. In January 2008, Senate Finance
Committee Chairman Max Baucus, Democrat-Montana, expressed his concern with the tax gap
at Douglas Shulman’s nomination hearing to become the 47th IRS Commissioner. Mr. Shulman
agreed that the tax gap was a significant problem and stated he was 100 percent committed to
working toward increasing compliance and closing the tax gap.

The IRS developed a strategic plan to improve oversight of tax administration
During FY 2008, the IRS, the Department of the Treasury, the Board, and a consulting firm
identified emerging trends affecting tax administration. A key trend identified included the
expanding role of tax practitioners and other third parties in the tax system. The IRS
Commissioner and his executives used these trends to develop a Strategic Plan outline, which
was shared with IRS senior management in August 2008.
The Board, which is responsible for approving the Strategic Plan, worked with the IRS to update
the Strategic Plan for FYs 2009–2013. The Board approved the IRS plan in April 2009. It
includes two overall goals related to achieving the IRS’ mission:
   Goal 1 – Improve service to make voluntary compliance easier.
   Goal 2 – Enforce the law to ensure everyone meets their obligation to pay taxes.
The IRS identified 10 key objectives for both goals—two pertain to reducing the tax gap by
engaging the tax community and include the approach to accomplish the objectives.
Specifically:
   •   Goal 1, Objective 4: Strengthen partnerships with tax practitioners, tax preparers, and
       other third parties in order to ensure effective tax administration.
       Strategy:
           1. Enable partners to better serve their customers by providing faster issue
              resolution and tailored service.
           2. Treat partners as the “first line of compliance” by providing them with the tools
              and information to encourage taxpayer compliance and prevent mistakes.

                                                                                           Page 3
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



    •   Goal 2, Objective 6: Ensure that all tax practitioners, tax preparers, and other third
        parties in the tax system adhere to professional standards and follow the law.
        Strategy:
             1. Develop and implement a coordinated preparer plan across the IRS and the
                preparer community.
             2. Administer a fair, diligent, and effective system of sanctions and penalties for
                those who fail to follow the law.
             3. Leverage research to identify fraudulent return preparers and other areas of
                abuse and noncompliance by return preparers.
Actions were not taken to ensure previously omitted key components were included in the
strategic plan
In FY 2007, the Treasury Inspector General for Tax Administration (TIGTA) reported 2 that the
IRS’ FYs 2005–2009 Strategic Plan did not have all of the information required to be included in
its plan. The IRS agreed with our recommendations, and the office of the Chief Financial
Officer 3 planned to take corrective actions by April 15, 2008, to ensure future strategic plans
included the following:
    •   A timetable/schedule for future program evaluations.
    •   A list of major management challenges and high-risk areas.
    •   A description of consultations conducted with Congress to develop the Strategic Plan.
    •   Information on how or where to send comments or questions.
Review of the existing IRS Strategic Plan showed only 1 (25 percent) of the planned corrective
actions was implemented. For the remaining three, one was not addressed, one was partially
completed, and there was not sufficient documentation to support that the remaining action was
implemented. IRS personnel stated that the lack of timely implementation on the corrective
actions occurred for the following reasons: 1) the timetable/schedule was not included because
they are expecting a revamping of the Performance Assessment Rating Tool; 4 2) a request was
made for Congress to provide input, but the IRS did not receive a response; and 3) they did not
have a reason for not clearly providing instructions for taxpayers to provide comments. We

2
  The Development of Specific Long-Term Measures and Targets Improved the Internal Revenue Service’s Strategic
Plan (2005–2009) (Reference number 2007-10-140, dated August 23, 2007).
3
  The Chief Financial Officer’s Corporate Planning and Internal Control staff leads the development of the IRS’
Strategic Plan and the processes for determining, collecting, analyzing, reviewing, reporting, and communicating the
measures of IRS-wide performance, as well as integrating performance and cost information.
4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 4
                     Plans Exist to Engage the Tax Preparer Community in
                  Reducing the Tax Gap; However, Enhancements Are Needed



followed up with the appropriate personnel in the Office of Management and Budget and they
confirmed that the IRS is still required to measure and gather data while the Performance
Assessment Rating Tool is being revamped. In addition, documentation was not available for us
to review and confirm that Congress was asked to provide input on the Strategic Plan.
Without these components, it is unclear how the IRS will effectively monitor its performance
and adherence to the requirements for strategic plans. The Government Accountability Office
guidance regarding audit recommendations suggests that management is responsible for
implementing recommendations made to Federal Government agencies.

Ten business divisions and functional offices created individual plans to support
the strategic plan
Workshops with senior IRS management and executives were held to discuss and identify ways
to align the Strategic Plan’s goals and objectives with the business operating divisions and
functional offices’ processes. We discussed these efforts with IRS personnel and determined this
task was accomplished by:
   •   Providing input and key priorities to their respective offices.
   •   Identifying external factors such as laws and economic changes that affect taxpayers and
       the IRS processes. Examples of economic changes that have an impact on IRS
       operations include unemployment rates and the housing market.
   •   Using internal performance report information, strategic performance measures
       evaluations, and research information on taxpayer segments.
Each business division and functional office developed annual multi-year plans and program
letters (hereafter referred to as functional plans). A review of the functional plans showed the
goals, programs, and activities were consistent and
supported the IRS’ objectives to strengthen the
partnership with tax practitioners to ensure an effective       Each IRS business division and
                                                               functional office developed plans
tax administration and to ensure that all tax                 that showed goals, programs, and
practitioners adhere to professional standards and              activities to support the IRS’ two
follow the law. For example, the Taxpayer Advocate               key objectives aimed at the tax
Service plan includes a goal to explore the role of                    preparer community.
preparers in bringing taxpayers into compliance by
identifying the types and causes of preparer errors and
the role of preparers in facilitating noncompliance. In addition, business units and functional
offices took the following steps to engage the tax practitioners:
   •   Conducted workshops with tax professionals from Federal advisory committees such as
       the Information Reporting Program Advisory Committee, the IRS Advisory Committee,


                                                                                              Page 5
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



        and the American Institute of Certified Public Accountants to develop scenarios and
        testing protocol to study preparer work processes.
    •   Completed a research study on the role of preparers in relation to taxpayer compliance
        with Internal Revenue Laws.
    •   Initiated a Preparer Penalty Program to address the following two primary preparer
        penalties:
        1) Internal Revenue Code Section 6694 – Understatement of taxpayer’s liability by tax
           return preparer.
        2) Internal Revenue Code Section 6701 – Penalties for aiding and abetting
           understatement of tax liability.
See Appendix IV for examples of goals, programs, and activities from all 10 business divisions
and functional offices.

Recommendation
Recommendation 1: The Chief Financial Officer should take steps to update the existing
IRS Strategic Plan and ensure future strategic plans have all of the information in the plans as
required by the Government Performance and Results Act of 1993 5 and Office of Management
and Budget Circular A-11 (Preparation, Submission, and Execution of the Budget).
        Management’s Response: IRS management agreed with this recommendation and
        will ensure future strategic plans incorporate the requirements in Department of the
        Treasury guidance, which includes both the Government Performance and Results Act of
        1993 and Circular A-11.
        Office of Audit Comment: While IRS management agreed with our
        recommendation, the IRS did not address modifying its existing Strategic Plan to include
        omitted key components required by the Department of the Treasury. We previously
        reported these omissions during our 2007 review, and the IRS responded it would ensure
        consistency with Treasury guidance in developing its next strategic plan. However, the
        current management response is similar to the IRS’ 2007 response, and we continue to
        believe the existing Strategic Plan should be updated to ensure the IRS is compliant with
        the Government Performance and Results Acts of 1993. We followed up with IRS
        management to provide them an opportunity to reconsider their response; however, we
        were advised that their position remained the same.



5
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).
                                                                                                           Page 6
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



A Return Preparer Review Was Initiated to Enhance Compliance
Standards for Tax Preparers
In June 2009, the IRS Commissioner launched a Return Preparer Review (hereafter also referred
to as the Review). The goal of the Review is to help the IRS better leverage the tax return
preparer community to increase taxpayer compliance and ensure uniform and high ethical
standards of conduct for tax preparers. The Review team was led by the Deputy Commissioner
for Operations Support and included senior IRS executives, a designated project manager, and a
team of IRS employees.
From June to December 2009, the IRS conducted three public forums with various members of
the preparer community and other stakeholders to obtain input on how to meet its objectives.
Participants who attended the forums included the Government Accountability Office, TIGTA,
selected States, 6 software developers, independent tax preparers, IRS employees, and taxpayers.
The IRS received more than 1,050 comments from the public and its employees on specific
questions regarding tax preparer activities. A review of the responses showed 53 percent of
respondents were in favor of the IRS providing improved oversight and enforcement of tax
practitioners and the tax preparer community, while only 42 percent were in favor of a proposed
requirement to register all preparers. Some offered methodologies to improve the oversight and
enforcement, and others questioned how the IRS would enforce control standards such as signing
tax returns for tax professionals and paid preparers who use off-the-shelf tax software. All
comments are available for review on the IRS’ website (IRS.gov).
The expected outcome of the Return Preparer Review was to propose a comprehensive set of
recommendations for the IRS Commissioner to provide to the Secretary of the Treasury and the
President by December 2009. On January 4, 2010, the Commissioner issued the Return Preparer
Review (Publication 4832), which included eight recommendations. Figure 1 reflects a brief
description of the eight Review recommendations.




6
 The States of California, Maryland, New York, and Oregon were selected because they have, or are in the process
of developing, a regulatory mechanism for all preparers of State tax returns.
                                                                                                         Page 7
                           Plans Exist to Engage the Tax Preparer Community in
                        Reducing the Tax Gap; However, Enhancements Are Needed



                    Figure 1: Return Preparer Review Recommendations

      Recommendations                                    Description of Recommendations
                             All individuals required to sign a Federal tax return as a paid tax return preparer will
    Mandatory Tax Return     be required to register and obtain a preparer tax identification number. The
    Preparer Registration    registration will be effective for a 3-year period and requires tax return preparers to
                             renew their registration every 3 years.
    Competency               All paid tax return preparers required to register with the IRS who are not attorneys,
    Examination              certified public accountants, or enrolled agents will be required to take a competency
    Requirements             test.
                             All paid tax preparers who are required to register will be required to take
                             15 hours of annual continuing professional education, including 3 hours of Federal tax
                             law updates, 2 hours of tax preparer ethics, and 10 hours of
    Continuing
                             Federal tax law topics. Attorneys, certified public accountants, enrolled agents, or
    Professional Education
                             others enrolled to practice before the IRS will be excluded because these individuals
                             generally must complete continuing education requirements to retain their
                             professional credentials.
                             All signing and nonsigning tax return preparers will be placed under Department of
    Ethical Standards
                             the Treasury Circular 230. 7
                             The IRS plans to implement a comprehensive enforcement strategy that includes
    Tax Return Preparer
                             applying significant examination and collection resources to tax return preparer
    Enforcement
                             compliance.
                             The IRS plans to establish a task force that will seek the input of the tax preparation
                             software industry, State Government representatives, and other relevant stakeholders
    Tax Return Preparation
                             to address identified risks associated with the dependence of tax administration on
    Software
                             consumer and commercial tax preparation software and discuss the possibility of
                             establishing industry standards.
                             The IRS plans to convene a working group to review the refund settlement product
    Refund Settlement
                             industry. Part of this review will include analyzing opportunities to improve refund
    Products
                             delivery options.
                             The IRS plans to develop a public awareness campaign to educate taxpayers, paid tax
    Public Awareness and     return preparers, and IRS employees about the new standards and requirements for tax
    Service Enhancements     return preparers. In addition, the IRS will develop a searchable database of tax return
                             preparers who have registered and passed the competency examination.
Source: The IRS Return Preparer Review Report dated January 4, 2010.


7
 Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers Before the Internal Revenue Service (Treasury
Department Circular No. 230, (revised 4-2008)).
                                                                                                            Page 8
                          Plans Exist to Engage the Tax Preparer Community in
                       Reducing the Tax Gap; However, Enhancements Are Needed



The IRS did not provide any time periods for implementation; however, all but two of the
recommendations will be implemented. The IRS will conduct a study to determine if standards
are needed for the recommendations that address tax return preparation software and delivery
options for refund settlement products for the unbanked taxpayer.
The IRS acknowledges that it does not know how many paid preparers exist and cannot
determine the full extent of noncompliance and incompetence within the tax practitioner
community. This lack of information hinders the IRS’ efforts to expand its outreach and
education initiatives and to identify potentially problematic preparers. Pursuing abusive
preparers is part of the IRS’ strategy to reduce the tax gap. While it is too soon to comment
whether the suggested recommendations will meet the IRS’ objectives, the recommendations are
an effective step in engaging the tax preparer community. The overall estimated cost in
conducting the Review is $1.3 million, which includes costs for 2 Federal contractors to provide
research and project management activities. The IRS did not consider opportunity costs for the
Return Preparer Review and funded the Review from its FY 2009 available and unallocated
funds. Also, IRS management stated that existing IRS programs were not negatively impacted
(from a resource and productivity perspective) by the undertaking of the Review. The TIGTA is
currently conducting a review 8 to evaluate the IRS’ efforts to implement the Review
recommendations by the 2011 Filing Season.

Performance Measures Are Needed to Monitor Efforts to Engage the
Tax Preparer Community
The IRS’ FYs 2009–2013 Strategic Plan does not
contain sufficient measures that will be useful for       Existing measures will not provide
monitoring its performance in achieving IRS goals and      IRS executives with data needed
                                                              to evaluate if the IRS is fairly
objectives to engage the paid preparer community.          applying penalties or effectively
For example, the existing measures will not provide          leveraging research to identify
IRS executives with data needed to evaluate if the IRS      fraudulent tax return preparers.
is fairly applying penalties or effectively leveraging
research to identify fraudulent tax return preparers.
We discussed the importance of having useful performance measures with IRS personnel and
were advised that specific measures were not needed because the broad measures included in the
plan would provide the information needed to assess performance. Figure 2 depicts the IRS’
existing plans for measuring performance to achieve the goals outlined in its Strategic Plan.




8
    Review of the IRS’ implementation of the Paid Preparer Strategy (Audit # 201040037).
                                                                                           Page 9
                      Plans Exist to Engage the Tax Preparer Community in
                   Reducing the Tax Gap; However, Enhancements Are Needed



             Figure 2: The IRS’ Long-Term Measures to Monitor Performance

             Measures                                   Description of Measures
                                Measure the amount of tax that is paid voluntarily and in a timely manner
                                as a percentage of the corresponding estimate of true tax liability. The
 Voluntary Compliance Rate
                                compliance rate reflects the impact of nonfiling, underreporting, and
                                underpayment combined.
 American Customer              Monitor the American Customer Satisfaction Index score related to the
 Satisfaction Index             electronic and paper filing processes for individual income tax returns.
                                Measure the percentage of all major tax returns filed electronically by
 E-File Rate                    individuals, businesses, and tax-exempt entities. “Major” tax returns are
                                those on which filers account for income, expenses, and/or tax liabilities.
 Taxpayer Satisfaction With     Administer surveys across all types of service to assess whether the
 IRS Services                   taxpayer’s issue was resolved in a reasonable timeframe.
                                Track all enforcement contacts including audits, notices, and Automated
 Enforcement Contacts           Underreporter Program work to arrive at a more complete measure of
                                coverage rate.
                                Track its enforcement activities that promote compliance but do not
 Non-Revenue Enforcement
                                primarily focus on increasing tax revenue (e.g., tax-exempt compliance
 Activity
                                programs or Bank Secrecy Act activities).
                                Analyze and estimate the number of individuals who do not file income
 Nonfilers
                                tax returns but have an obligation to file an income tax return.
  Source: The IRS’ FYs 2009–2013 Strategic Plan.

Paid tax return preparers are a critical component and stakeholder in tax administration and
represent an important intermediary between taxpayers and the IRS. They are also an important
component in IRS efforts to close the tax gap. In addition, the tax return preparer community
provides a unique opportunity to affect taxpayer behavior and compliance with the tax laws.
Without specific measures and a process to obtain needed data, the IRS will not be able to
monitor the effectiveness of its strategies to engage paid preparers and their role in reducing the
tax gap.

Performance measures were excluded from the business divisions’ and
functional offices’ plans and business performance reviews
The IRS business divisions’ and functional offices’ business performance reviews and plans did
not always include outcomes, outcome measures, baselines, or targets that could be used to
measure if actions taken would achieve objectives in the IRS Strategic Plan. We reviewed
10 business divisions’ and functional offices’ plans and business performance reviews for the
two strategic plan objectives related to paid preparers and identified the following:

                                                                                                 Page 10
                     Plans Exist to Engage the Tax Preparer Community in
                  Reducing the Tax Gap; However, Enhancements Are Needed



   •   Five of the 10 had all the measures needed for the Strategic Plan objective to strengthen
       partnerships with tax practitioners, tax preparers, and other third parties to ensure
       effective tax administration.
   •   Two of the 10 had all the measures needed for the Strategic Plan objective to ensure that
       all tax practitioners, tax preparers, and other third parties in the tax system adhere to
       professional standards and follow the law.
The Government Performance and Results Act of 1993 was enacted to bring to Federal
Government agencies more accountability in how they spend their budgets and how well they
fulfill their public service roles. It requires strategic plans to include a mission statement,
general goals, objectives, and strategies and measures. In addition, the Government
Accountability Office guidelines require top-level reviews of actual performance and the
establishment and review of performance measures because it is critical that plans have a method
to measure the progress and expected outcome of goals and actions. The availability of this data
in the IRS Strategic Plan and in the business divisions’ and functional offices’ plans and business
performance reviews will improve their usefulness and provide information needed to make
better management decisions.
As the IRS moves forward with it plans to implement the Return Preparer Review
recommendations, it is critical that it considers our results and takes the necessary steps to
document methods to measure and monitor the progress and expected outcomes for the planned
strategies. The initial care exercised will enable management to better evaluate the success of its
goals and objectives. Furthermore, the concept of accountability for use of public resources and
government authority is a key component to our nation’s governing processes. Legislators,
government officials, and the public need to know whether government programs are achieving
their objectives and desired outcomes.

Recommendation
Recommendation 2: The Chief Financial Officer should define and include in the
IRS Strategic Plan sufficient measures that will provide data that can be used to monitor the
IRS’ efforts to achieve objectives aimed at strengthening partnerships with tax practitioners and
paid preparers to ensure effective tax administration. This effort includes coordinating with the
business divisions and functional offices to ensure their plans and/or business performance
reviews include acceptable measures to assess their progress in achieving the expected outcomes
of goals and actions which support the IRS Strategic Plan.
       Management’s Response: IRS management agreed with this recommendation and
       will include in the IRS Strategic Plan measures to assess progress in achieving the
       expected goals and objectives that support the IRS Strategic Plan.



                                                                                           Page 11
             Plans Exist to Engage the Tax Preparer Community in
          Reducing the Tax Gap; However, Enhancements Are Needed



Office of Audit Comment: While IRS management agreed with the recommendation,
the planned corrective actions did not address modifying the existing Strategic Plan to
include sufficient measures that will provide data that can be used to monitor IRS efforts
to achieve objectives aimed at strengthening partnerships with tax practitioners and paid
preparers. For example, we reported that the IRS does not have a measure to evaluate if
the IRS is fairly applying penalties or effectively leveraging research to identify
fraudulent tax return preparers. Also, IRS management did not address how they plan to
coordinate with the business divisions and functional offices to ensure their plans and
business performance reviews include acceptable measures to assess their progress in
achieving the actions/goals specifically for the tax preparer community. Finally, IRS
management agreed to assess the progress in achieving the expected goals and objectives
which support the Strategic Plan; however, they did not clarify if the assessment will
include all or some of the goals and objectives in all business divisions and functional
offices. Without an effective process to monitor its performance, the IRS cannot ensure
its programs are achieving their objectives and desired outcomes. We followed up with
IRS management to clarify and provided them the opportunity to reconsider their
response; however, we were advised that their position remained the same.




                                                                                  Page 12
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’ efforts to engage the tax
practitioner community in a productive partnership to reduce the tax gap. 1 To accomplish the
overall objective, we:
I.      Determined whether the IRS Strategic Plan for FYs 2009–2013 was sufficient for items
        such as goals, objectives, and quantifiable measures to engage the tax practitioner
        community to reduce the tax gap.
        A. Discussed with the IRS office of the Chief Financial Officer the development of the
           Strategic Plan.
        B. Reviewed the IRS Strategic Plan for FYs 2009–2013 to determine if it included the
           information that was missing from the FYs 2005–2009 Strategic Plan.
        C. Determined if the prior recommendations from the TIGTA FY 2007 audit report 2
           were implemented.
        D. Obtained and reviewed documents from the office of the Chief Financial Officer to
           determine whether any stakeholders concerns pertaining to partnering with tax
           practitioners to reduce the tax gap were addressed in the IRS Strategic Plan for
           FYs 2009–2013.
        E. Determined whether the plan contained the critical components required by the
           Government Performance and Results Act of 1993. 3
II.     Determined if the 10 business divisions and functional offices 4 developed plans to
        support the IRS’ direction to engage the tax practitioner community to reduce the tax gap,



1
  See Appendix V for a glossary of terms.
2
  The Development of Specific Long-Term Measures and Targets Improved the Internal Revenue Service’s Strategic
Plan (2005–2009) (Reference number 2007-10-140, dated August 23, 2007).
3
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).
4
  The 10 offices are: the Criminal Investigation Division; the Large and Mid-Size Business Division; the Office of
Appeals; the Office of Professional Responsibility; the Taxpayer Advocate Service; the Wage and Investment
Division; the Small Business/Self-Employed Division; and the Employee Plans, Exempt Organizations, and
Tax Exempt Bonds functions of the Tax Exempt/Government Entities Division. Since the Tax Exempt/Government
Entities Division completed separate annual plans for each office, we counted each office as a separate office.


                                                                                                         Page 13
                     Plans Exist to Engage the Tax Preparer Community in
                  Reducing the Tax Gap; However, Enhancements Are Needed



       which includes all tax preparers adherence to professional standards and following the
       law.
       A. Determined if the 10 business divisions’ and functional offices’ plans addressed and
          included specifics to support the IRS’ goals outlined in the IRS Strategic Plan for
          FYs 2009–2013.
       B. Determined if the business divisions’ and functional offices’ plans included the
          elements required under the Performance Assessment Rating Tool.
       C. Identified any other programs not included in the functional plans that engage the tax
          community to reduce the tax gap and help ensure adherence to professional standards
          and the law.
III.   Determined if IRS management considered the opportunity cost of conducting the Return
       Preparer Review and determined the impact of diverted resources for the Review on
       existing IRS programs.
       A. Identified and interviewed the Review team to discuss the planning and goals for the
          Review.
       B. Obtained and reviewed documentation that addressed the goals/objectives, resource
          commitments, impact of the resource commitments on existing IRS programs,
          planned efforts/activities, expected outcomes, and milestones for the Review.
       C. Identified the method the IRS used to monitor the actions/tasks for accomplishing the
          Review.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the establishment of a Strategic Plan and
its goals and strategies for relevance to engaging the tax preparer community to reduce the tax
gap and the performance measures needed to assist in assessing the accomplishment of the Plan
goals. We evaluated these controls by interviewing management and reviewing the current
Strategic Plan, functional plans that support it, and business performance reviews that reflect the
IRS’ performance to accomplish its goals and strategies.




                                                                                           Page 14
                   Plans Exist to Engage the Tax Preparer Community in
                Reducing the Tax Gap; However, Enhancements Are Needed



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Acting Director
Marybeth Schumann, Director
Deborah Drain, Audit Manager
Cindy Harris, Lead Auditor
John Chiappino, Senior Auditor
Andrea McDuffie, Senior Auditor
Lynn Ross, Senior Auditor
Sylvia Sloan-Copeland, Auditor
Joel Weaver, Auditor




                                                                                   Page 15
                   Plans Exist to Engage the Tax Preparer Community in
                Reducing the Tax Gap; However, Enhancements Are Needed



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Commissioner, Large and Mid-Size Business Division SE:LM
Director, Office of Professional Responsibility SE:OPR
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Appeals AP
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO
       Commissioner, Large and Mid-Size Business Division SE:LM
       Director, Office of Professional Responsibility SE:OPR
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       National Taxpayer Advocate TA




                                                                              Page 16
                            Plans Exist to Engage the Tax Preparer Community in
                         Reducing the Tax Gap; However, Enhancements Are Needed



                                                                                                  Appendix IV

              Examples of Goals, Programs, and Activities
                  (From 10 Business Divisions and Functional Offices
                           That Support the Strategic Plan)

     Business Divisions and
                                                          Goals, Programs, and Activities
      Functional Offices
                                Increase taxpayer awareness of Alternative Dispute Resolution programs while
    Appeals
                                exploring opportunities to expand early issue resolution.
                                Reach out both alone and in partnership with other IRS operating divisions to all
    Criminal Investigation      market segments, including the tax practitioner community, for the purpose of
    Division                    educating individuals, businesses, and return preparers about the various types of
                                fraud committed in their industry and how to recognize, avoid, and report it.
                                Coordinate with the Lead Development Center 1 in the Small Business/Self Employed
    Employee Plans              Division and the Department of Justice to protect participants and their retirement
                                funds by working to seek injunctions against promoters of abusive arrangements.
                                Conduct reviews of the activities of exempt organizations using data on file and
    Exempt Organizations        publically available information, without direct involvement with the taxpayer.
                                These reviews may lead to compliance checks, examinations, or followup in a later
                                year, thus ensuring that compliance is maintained on an ongoing basis.
    Large and Mid-Size          Engage taxpayers and their preparers in the development of the facts and the issue
    Business Division           resolution process, using appropriate tools to timely reach agreement.
    Office of Professional      Continue to disclose final case dispositions on its webpage for reference and
    Responsibility              guidance.
    Small Business/             Identify and act on emerging schemes through approval and development of
    Self-Employed Division      promoter penalties, abusive preparer, and participant cases.
                                Continue to utilize the Internal Revenue Code Section 6700, Tax Promoter Penalty,
    Tax Exempt Bonds            to target the promoters of abusive transactions and the lack of diligence by market
                                professionals.
                                Explore the role of preparers in bringing taxpayers into compliance. Identify the
    Taxpayer Advocate
                                types of and causes of preparer errors and the role of preparers in facilitating
    Service
                                noncompliance.
    Wage and Investment         Provide improved training tools through web-based training that links tax law and
    Division                    software into a single process-based training module.
    Source: The annual and multi-year functional plans of 10 IRS business divisions and functional offices.


1
    See Appendix V for a glossary of terms.
                                                                                                                Page 17
                        Plans Exist to Engage the Tax Preparer Community in
                     Reducing the Tax Gap; However, Enhancements Are Needed



                                                                                         Appendix V

                                     Glossary of Terms

American Customer Satisfaction Index – A customer satisfaction index that relates
expectations and evaluations of quality to customer satisfaction and is an internationally accepted
measure of customer satisfaction used in over 20 countries.
Business Performance Review – A process which establishes a framework for measuring,
reporting, and reviewing a business division’s performance against its functional plans
established within the Strategic Planning and Budget process. The Business Performance
Review is one of several communication vehicles used to report quarterly performance measures
to the IRS Commissioner’s Office.
Gross Tax Gap – An estimated amount determined by the IRS of tax liabilities due in Tax
Year 2001 before enforcement efforts and late payments were considered. The estimated amount
is $345 billion. The amount of enforcement effort and late payments totaled $55 billion. The
difference between the two—$290 billion—is the net tax gap.
Lead Development Center – Coordinates local and national projects initiated to identify
specific areas/industries of noncompliance. It is the focal point for the fraud referral program,
coordinating all referrals to and from the operating divisions and providing fraud awareness
training to operating division employees.
Opportunity Costs – The benefits forgone by a particular use of resources. Also, it is the
alternative with the greatest value to an agency that is the next best use of the resources.
Performance Assessment Rating Tool (PART) – A vehicle for achieving the goals of the
Government Performance and Results Act of 1993. 1 It strengthens and reinforces performance
measurement under that act by encouraging careful development of performance measures for
programs according to the outcome-oriented standards of the law and by requiring that agency
goals include actions with completion dates and designed to improve program results.
Tax Gap – The difference between the annual Federal tax obligation and the amount of tax the
taxpayer pays voluntarily and timely. The tax gap consists of those who do not file their returns,
do not make their payments on time, and file returns but underreport their income or over report
their expenses.
Unbanked Taxpayer – A taxpayer who does not have a bank account.


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).
                                                                                                           Page 18
       Plans Exist to Engage the Tax Preparer Community in
    Reducing the Tax Gap; However, Enhancements Are Needed



                                                Appendix VI

Management’s Response to the Draft Report




                                                      Page 19
   Plans Exist to Engage the Tax Preparer Community in
Reducing the Tax Gap; However, Enhancements Are Needed




                                                  Page 20
   Plans Exist to Engage the Tax Preparer Community in
Reducing the Tax Gap; However, Enhancements Are Needed




                                                  Page 21
